May 7, 2007

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Address Management System Information – Eastern Area
         (Report Number DR-AR-07-009)

This report presents the results of our self-initiated audit of Address Management
System (AMS) information in the Eastern Area (Project Number 06XG052DR000). This
is one in a series of reports on AMS information. We will include the results of this audit
in a nationwide capping report assessing the management of AMS information. Our
objective was to assess the U.S. Postal Service’s management of delivery AMS quality
review results to ensure address information is correct and complete to effectively
process and deliver the mail in the Eastern Area.

Postal Service officials in the Eastern Area’s Pittsburgh and South Jersey Districts
effectively managed Delivery AMS quality review results for approximately 6 percent
(260 of 4,382) of their routes according to Postal Service guidelines. However,
opportunities exist for area officials to implement best management practices from the
New York Metro Area’s New York District to improve the quality of AMS data to process
and deliver the mail. Approximately 50,664 AMS data errors may exist in these districts
on the 4,222 routes for which we did not conduct street reviews. If these districts
implemented a program similar to the New York District’s, they could reduce errors by
31.84 percent, saving the Postal Service $779,013 over the next 10 years. We will
report $779,013 of funds put to better use in our Semiannual Report to Congress.

For fiscal years 2005 and 2006, Eastern Area Districts improved their Delivery Point
Sequence (DPS) mail volume percentages. According to the Transformation Plan, the
Postal Service’s goal is to sort 95 percent of letters by DPS by 2010. A decrease in
AMS data errors will help Eastern Area officials achieve the DPS goal of 95 percent and
will reduce operating costs.

We recommended the Vice President, Eastern Area Operations, implement an AMS
quality review program similar to the New York District’s that provides training in AMS
quality street reviews to delivery supervisors or appropriate designees. We also
recommended establishing an annual district schedule of AMS quality street reviews
and directing delivery supervisors or appropriate designees to review delivery routes
annually. Finally, we recommended the AMS office establish a tracking system to
monitor completed street reviews.
Management agreed in principle with our findings and recommendations and has
alternative initiatives planned addressing the issues in this report. However,
management did not agree with the monetary impact of $779,013 in funds put to better
use. Management’s comments and our evaluation of these comments are included in
the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Kathleen Ainsworth
    Charles E. Bravo
    Steve M. Dearing
    Elizabeth A. Schaefer
    Natale V. Mastriano
    Keith J. Beppler
    Joanna B. Korker
    Deborah A. Kendall
Address Management System Information -                                                             DR-AR-07-009
 Eastern Area


                                             INTRODUCTION
    Background                     Address management has become the foundation for how
                                   the U.S. Postal Service moves mail. Over the years, the
                                   Postal Service has been striving to obtain the highest quality
                                   address information possible for internal use and for its
                                   customers. In March 1993, the Postal Service implemented
                                   Delivery Point Sequence (DPS).1 DPS is the process of
                                   putting barcode mail into the carrier’s line of travel (LOT) to
                                   eliminate manual mail sorting, improve efficiency, and
                                   reduce costs.

                                   In 1994, the Postal Service established the Address
                                   Management System (AMS) to capture, correct, and
                                   complete address information to enhance the efficiency of
                                   mail processing and delivery through automation. Address
                                   information in the AMS is captured in sort programs used to
                                   process mail in DPS. A developer creates sort programs as
                                   part of the Sort Program System, which is part of the
                                   National Directory Support System (NDSS). DPS sort
                                   programs are transferred to either a Mail Processing
                                   Barcode Sorter or a Delivery Barcode Sorter2 for sorting
                                   mail into DPS.

                                   Mail that cannot be processed on automated equipment
                                   requires manual processing, which is less efficient and is
                                   costly to the Postal Service. As illustrated in Table 1, during
                                   fiscal year (FY) 2005, the Postal Service processed 94
                                   billion pieces of letter mail, of which 72 billion pieces (76.8
                                   percent) were processed on automated equipment and the
                                   remaining 22 billion pieces (23.2 percent) manually. During
                                   FY 2006, the Postal Service processed 93.3 billion pieces of
                                   letter mail; 74.4 billion pieces (79.7 percent) were processed
                                   on automated equipment and the remaining 18.9 billion
                                   pieces (20.3 percent) manually.




1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers that changed the automation
environment.
2
  DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.



                                                          1
Address Management System Information -                                                             DR-AR-07-009
 Eastern Area



                                   Table 1. Postal Service Letter Mail Processed in Pieces
                                                     FYs 2005 and 2006
                                                                                                   Cased
                        Fiscal    DPS Letters     Cased Letters     Total Letters      DPS         Letter
                         Year       (Pieces)         (Pieces)         (Pieces)      Percentage   Percentage
                       2005      72,270,819,511   21,846,660,416   94,117,479,927      76.8         23.2
                       2006      74,404,492,341   18,929,268,976   93,333,761,317      79.7         20.3

                        Source: Postal Service Web-Enabled Enterprise Information System (WebEIS)


                                  In 2003, the Postal Service outlined a strategy to enhance
                                  address quality in its Intelligent Mail Corporate Plan. The
                                  strategy includes improving the address database, filling
                                  change of address orders, and using Address Change
                                  Service. To improve the address database, the Postal
                                  Service established a Delivery AMS quality review program
                                  to evaluate the quality of AMS data and meet the goal of
                                  100 percent accurate AMS data nationwide.

                                  As part of the quality review program, National Customer
                                  Support Center (NCSC) teams annually conduct street
                                  reviews of 40 routes at each Postal Service district
                                  nationwide. The NCSC teams select 40 city or rural delivery
                                  routes based on Postal Service guidelines. For every route
                                  selected within a ZIP Code, two alternate routes are
                                  selected.3

                                  The street reviews:

                                      •    Identify all possible delivery addresses included in
                                           Address Information System products and the NDSS
                                           files.

                                      •    Validate the number of possible delivery addresses
                                           assigned to each carrier route.

                                      •    Validate the correct LOT or delivery sequence for
                                           each carrier route.

                                      •    Assign ZIP+4® Codes to maximize compatibility with
                                           automated equipment.



3
 The Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes
annually.



                                                         2
Address Management System Information -                                                               DR-AR-07-009
 Eastern Area



                                        •   Verify the standardization of addresses according to
                                            Publication 28, Postal Addressing Standards, dated
                                            July 2006.

                                        •   Review AMS database products to meet the needs
                                            and expectations of Postal Service customers.

                                   When a district scores below 98 percent on the street
                                   review, the NCSC team will review it every 6 months, and
                                   the districts that score from 98 to 100 percent will receive an
                                   annual review. Districts scoring 99 percent or higher may
                                   receive abbreviated route reviews.

                                   In addition to the NCSC street reviews, AMS district officials
                                   conduct street reviews of routes to maintain the accuracy of
                                   AMS data. Carriers also identify AMS data changes based
                                   on their street deliveries. The carriers note address
                                   changes in their AMS edit books and submit the information
                                   to the AMS district officials using their Web Electronic Edit
                                   Sheets for review and correction in the AMS database.

                                   As the Postal Service continues to process mail on
                                   automated equipment, the quality of address information
                                   takes on new importance. Use of correct and complete
                                   address information can reduce costs to the Postal Service.

    Objective, Scope, and          Our objective was to assess the Postal Service’s
    Methodology                    management of the Delivery AMS quality review results to
                                   ensure address information is correct and complete to
                                   effectively process and deliver the mail in the Eastern Area.
                                   We obtained data on FYs 2005 and 2006 Delivery AMS
                                   quality reviews from the NCSC to analyze routes reviewed,
                                   AMS data errors identified, and performance scores. We
                                   selected the Eastern Area’s Pittsburgh and South Jersey
                                   Districts and the New York Metro Area’s New York District
                                   for review, based on the NCSC performance scores shown
                                   by delivery AMS quality reviews.4

                                   We obtained and reviewed prior AMS review results for the
                                   New York District, which showed street review performance

4
  We selected the Pittsburgh and South Jersey Districts based on their historically low performance scores and their FY
2005 quality review results. We selected the New York District based on its historically high performance scores and
improvements to the AMS process.



                                                           3
Address Management System Information -                                                                DR-AR-07-009
 Eastern Area


                                    scores consistently above 99 percent. As a best
                                    management practice, we evaluated the feasibility and
                                    applicability of the New York AMS data maintenance
                                    program in other Postal Service districts. Our review of
                                    performance scores in the Eastern Area showed the
                                    Pittsburgh and South Jersey Districts were consistently
                                    below 98 percent. (See Appendix A.) We evaluated the
                                    districts’ AMS data maintenance process to determine
                                    whether they could improve their programs. We also
                                    reviewed the districts’ FYs 2005 and 2006 DPS information
                                    to compare their DPS volumes to the Postal Service goal.5

                                    We conducted this audit from August 2006 through
                                    May 2007 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate. We relied on computer-
                                    processed information from Postal Service AMS. We did
                                    not directly audit the system, but performed a limited data
                                    integrity review to support our data reliance.

    Prior Audit Coverage            The OIG issued eight reports directly related to our
                                    objectives. We have included a complete listing of the
                                    reports in Appendix D.




5
  We are planning a future review that will incorporate DPS percentages, to identify opportunities to generate revenue,
reduce costs, and improve customer service.



                                                           4
Address Management System Information -                                                                 DR-AR-07-009
 Eastern Area


                                              AUDIT RESULTS
    Address Management              Postal Service officials in the Eastern Area’s Pittsburgh and
    System Information –            South Jersey Districts effectively managed Delivery AMS
    Eastern Area                    quality review results for approximately 6 percent of their
                                    routes.6 However, opportunities exist for area officials to
                                    implement best management practices from the New York
                                    Metro Area’s New York District to improve the quality of
                                    AMS data to process and deliver the mail.

                                    In FY 2005, the Eastern Area’s Pittsburgh and South Jersey
                                    Districts had 4,382 total routes, as illustrated in Chart 1.
                                    The NCSC team reviewed approximately 4 percent (160 of
                                    4,382) of these routes according to Postal Service
                                    guidelines. The team identified 1,921 errors, approximately
                                    12 errors per route. The districts did not achieve the
                                    98 percent AMS target goal. (See Appendix A.) During the
                                    same period, the Pittsburgh and South Jersey Districts’
                                    AMS officials reviewed approximately 2 percent (100 of
                                    4,382) of the routes. The remaining 94 percent (4,122 of
                                    4,382) of the routes were not reviewed. (See Appendix B.)

                                      Chart 1. Number and Percentage of Routes Reviewed in Pittsburgh and
                                                            South Jersey Districts

                                                                Routes Reviewed by             Routes
                                                                   NCSC Team                 Reviewed by
                                                                       160                     District
                                                                        4%                     Officials
                                                                                                 100
                                                                                                 2%




                                                                              Routes Not
                                                                              Reviewed
                                                                                4,122
                                                                                 94%

                                              Source: Postal Service NCSC and Eastern Area Officials




6
 The 5.93 percent represents the 260 routes reviewed out of the 4,382 total routes for the two districts (2,127 for
Pittsburgh and 2,255 for South Jersey).



                                                            5
Address Management System Information -                                                                  DR-AR-07-009
 Eastern Area



                                    Based on FY 2005 NCSC team reviews and the related
                                    error rate per route, approximately 50,6647 AMS data errors
                                    may exist in these two districts on the 4,222 routes for which
                                    street reviews were not conducted by NCSC.

                                    Currently, the Pittsburgh and South Jersey Districts’
                                    programs are administered by local AMS officials. As
                                    illustrated in Table 2, at the time of our review, local AMS
                                    specialists and coordinators performed quality street
                                    reviews for 260 routes.8 However, local AMS officials did
                                    not use available district resources, such as delivery
                                    supervisors or appropriate designees, to conduct additional
                                    street reviews for the remaining 4,122 routes. District
                                    officials stated staffing constraints hindered the completion
                                    of additional reviews.

                                      Table 2. Eastern Area Route Reviews Conducted in the Pittsburgh and
                                                             South Jersey Districts

                                                                      NCSC         District                   Total
                                                                      Route         Route         Total      Routes
                                          Selected         Total     Reviews       Reviews       Routes        Not
                                          Districts       Routes    Conducted     Conducted     Reviewed    Reviewed

                                      Pittsburgh            2,127            80           63         143        1,984
                                      South Jersey          2,255            80           37         117        2,138

                                      Total                 4,382          160           100         260        4,122

                                               Source: Postal Service NCSC and Eastern Area Officials

                                    In addition, the AMS review module in the associate
                                    supervisors’ training course given to these districts’ delivery
                                    supervisors does not include specific information on AMS
                                    quality street reviews. The module provides information
                                    only on edit book updates and how to enter the changes
                                    into the automated system for submission to district officials.

                                    During our audit, the Pittsburgh District was selected to
                                    participate in the NCSC Address Quality Improvement
                                    Training, which provides guidance on quality street reviews.
7
  Our projection of the possible number of errors that may exist in routes not reviewed is based on the formula NCSC
uses in its street reviews. The error projection for each district is determined using the number of errors identified in
NCSC street reviews, determining an error rate per route, and applying the rate to the number of routes not reviewed.
The 50,664 projected errors were calculated by adding the following: Pittsburgh – 24,564 (973 errors ÷ 80 routes
reviewed = 12.16 [rounded down to 12 errors per route] × 2,047 routes not reviewed) and South Jersey – 26,100 (948
errors ÷ 80 routes reviewed = 11.85 [rounded up to 12 errors per route] × 2,175 routes not reviewed).
8
  The 260 routes reviewed by the districts consist of the Pittsburgh District with 143 and the South Jersey District with
117 routes.



                                                             6
Address Management System Information -                                                                  DR-AR-07-009
 Eastern Area



                                    The Postal Service established AMS to capture, correct,
                                    and complete address information to enhance the efficiency
                                    of mail processing and delivery through automation.
                                    Address information is captured in sort programs used to
                                    process mail in DPS. DPS was created to eliminate manual
                                    mail sorting, improve efficiency, and reduce costs.

                                    As illustrated in Table 3, from FYs 2005 to 2006, the
                                    Eastern Area Districts improved their DPS mail volume
                                    percentages. According to the Transformation Plan,9 the
                                    Postal Service’s goal is to sort 95 percent of letter mail
                                    volume by DPS by 2010. A decrease in AMS data errors
                                    will help Eastern Area officials achieve the DPS goal and
                                    will reduce operating costs.

                                                  Table 3. Eastern Area Districts’ DPS Percentages


                                                      Eastern Area
                                                        Districts             FY 2005          FY 2006

                                                 Appalachian                    78.54            81.90
                                                 Central Pennsylvania           76.44            78.89
                                                 Cincinnati                     73.77            78.16
                                                 Columbus                       72.06            82.52
                                                 Erie                           72.39            78.37
                                                 Kentuckiana                    77.24            81.05
                                                 Philadelphia                   76.37            78.36
                                                 Pittsburgh                     72.67            74.16
                                                 Northern Ohio                  72.60            75.36
                                                 South Jersey                   74.92            80.31

                                                 Eastern Area Average           74.53            78.31
                                                 National Average               76.79            79.72

                                                            Source: Postal Service WebEIS


                                    If the Pittsburgh and South Jersey Districts implemented a
                                    program similar to the New York District’s, they could
                                    reduce errors by 31.84 percent,10 saving the Postal Service



9
  United States Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
10
  The error reduction rate factor for the New York Metro Area is 71.05 percent, and the error reduction rate factor for the
control group is 29.74 percent. The factor for the New York Metro is divided by the control group factor
(1.7105 ÷ 1.2974 = 31.84 percent). The expectation is that the districts will reduce their error rate by 31.84 percent by
implementing a program similar to the New York District’s.



                                                            7
Address Management System Information -                                           DR-AR-07-009
 Eastern Area


                             $779,013 over the next 10 years. We will report $779,013
                             of funds put to better use in our Semiannual Report to
                             Congress. (See Appendix C.)

 New York City District The New York District has 2,202 city routes. In FY 2005,
                        the NCSC team reviewed 2 percent (40 of 2,202) of these
                        routes according to Postal Service guidelines. The team
                        identified 195 AMS errors, approximately five errors per
                        route, and the district received a 99.21 percent AMS
                        performance score from the street review. The NCSC team
                        did not review the remaining 98 percent of the routes (2,162
                        of 2,202).

                             In 1998, the New York District began an extensive AMS
                             quality review program, administered by local AMS officials,
                             which requires delivery units to complete AMS street
                             reviews using existing staff. As part of the program, New
                             York District officials added an AMS review module to the
                             associate supervisors’ training course given to New York
                             District delivery supervisors. In addition, the New York AMS
                             office established AMS review schedules for all delivery
                             units’ existing staff and an accountability system that
                             monitors the completion of AMS street reviews conducted
                             by delivery supervisors or their designees. As a result, the
                             New York District used existing staff to significantly increase
                             its review coverage.

                             In FY 2005, New York District officials set a goal of
                             reviewing all routes annually, including routes reviewed by
                             the district and the NCSC. The existing staff reviewed
                             routes and implemented corrective actions for the AMS
                             errors identified. AMS reviews conducted by delivery unit
                             staff are implemented by all districts in the New York Metro
                             Area, and the program has been very successful. Since its
                             inception, all districts have achieved significant increases in
                             AMS performance scores. The historical average
                             performance score for the New York District is 99.03
                             percent.

                             During our audit, the Deputy Postmaster General and Chief
                             Operating Officer issued a memorandum dated August 23,
                             2006, on AMS national street reviews. The memorandum
                             stated that for FY 2007, trained field personnel would
                             conduct all delivery AMS street reviews. The AMS national
                             street review team will not conduct on-site street reviews in



                                               8
Address Management System Information -                                           DR-AR-07-009
 Eastern Area


                             FY 2007 and will not have funding to assist the field with
                             travel costs. The FY 2007 delivery AMS street review
                             schedule will continue to be coordinated through the area
                             and headquarters address management officials. The
                             NCSC will continue to provide street review materials.

 Recommendation              We recommend the Vice President, Eastern Area
                             Operations, implement an AMS quality review program
                             similar to the New York District that:

                                 1. Provides training in Address Management System
                                    quality street reviews to delivery supervisors or their
                                    designees.

 Management’s                Management did not agree to establish an AMS quality
 Comments                    review program similar to the New York District as they
                             estimated it would cost $8 million per year to implement.
                             Instead, they stated they would use the National Address
                             Quality Reporting Tool (AQRT). Further, management did
                             not agree with the monetary impact of $779,013 in funds put
                             to better use. However, management agreed with
                             recommendation 1 and stated they will train the appropriate
                             personnel in each district by the end of FY 2007 on the
                             AQRT. Officials also stated that by providing training on the
                             AQRT, they will identify performance issues that prevent the
                             AMS database from improving operational efficiency.
                             Management stated the AQRT will enable district personnel
                             to monitor, identify, and correct delivery database
                             information. Management’s comments, in their entirety, are
                             included in Appendix E.

 Recommendation                  2. Establishes a district schedule of annual Address
                                    Management System quality street reviews.

 Management’s                 Management agreed to establish an annual schedule for
 Comments                     quality street revises based on the key indicators within the
                              AQRT. Management stated that this process will enable
                              them to target their high opportunity routes while improving
                              operational performance. Management also stated that
                              continually using the AQRT process will identify the
                              greatest improvement and have the best return on invested
                              costs.




                                                9
Address Management System Information -                                         DR-AR-07-009
 Eastern Area




 Recommendation                  3. Directs delivery supervisors or their designees to
                                    review delivery routes annually.

 Management‘s                 Management agreed with the recommendation to direct
 Comments                     delivery supervisors or their designees to review delivery
                              routes annually. Management stated the AQRT will enable
                              district personnel to monitor, identify, and correct delivery
                              database information. Management also stated that the
                              newly established annual schedule for quality street reviews
                              will be conducted based on the key indicators within the
                              AQRT, which will enable them to target their high
                              opportunity routes while improving operational
                              performance.

 Recommendation                  4. Establishes a tracking system to monitor completed
                                    street reviews.

 Management’s                 Management agreed with the recommendation to establish
 Comments                     a tracking system to monitor completed street reviews and
                              stated they had already implemented a tracking system for
                              each district.

 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendations 1, 2, 3, and 4. Management’s alternative
 Comments                     actions taken and planned should correct the issues
                              identified in the findings.

                             We believe the model used to calculate savings (Appendix
                             C) provides a reasonable estimate of costs that could be
                             saved by implementing an AMS error reduction program.
                             The model applied the principles used by the New York
                             District’s error reduction program. Under this program, AMS
                             street reviews were absorbed into the workload of existing
                             staff, without any additional cost. Since management
                             agreed to implement alternative actions to address the
                             issues identified in this report, we do not plan to pursue the
                             unresolved monetary impact issues through the formal audit
                             resolution process.




                                               10
Address Management System Information -                                                                             DR-AR-07-009
 Eastern Area




                                                                APPENDIX A

                                NCSC REVIEW RESULTS FOR THE EASTERN AREA

                                         FY                                      Historical   Achieved    FY
                                        2005      FY 2005       Achieved         Average        98%      2006    FY 2006     Achieved
            Eastern Area District       Score      Score       98% Score        Score as of    Score     Score    Score     98% Score
    No.          Locations               %         Date         FY 2005          FY 2005       History    %       Date       FY 2006

      1   Kentuckiana                   97.18      9/27/05        No               96.35        No       98.22   3/20/06      Yes
      2   Central PA*                   98.30      9/20/05        Yes              97.23        No
      3   Pittsburgh                    97.16      5/23/05        No               96.39        No       96.21   6/06/06      No
      4   South Jersey                  97.90      9/26/05        No               96.48        No       96.19   5/04/06      No
      5   Appalachian                   98.30      9/20/05        Yes              96.44        No       99.17   9/12/06      Yes
      6   Cincinnati                    98.00      6/14/05        Yes              97.18        No       98.03   6/06/06      Yes
      7   Erie                          98.32      5/10/05        Yes              96.01        No       98.77   4/24/06      Yes
      8   Northern Ohio                 98.69      3/29/05        Yes              97.84        No       99.05   3/14/06      Yes
      9   Philadelphia Metro            98.04      6/06/05        Yes              96.46        No       98.37   9/18/06      Yes
     10   Columbus                      98.01      11/2/04        Yes              97.99        No       98.60   11/01/05     Yes

                                                  Source: Postal Service NCSC officials

       *The September 20, 2005, review is the last audit completed for this district.




                                                                        11
                                                              Restricted Information
Address Management System Information -                                                                                DR-AR-07-009
 Eastern Area


                                                                          APPENDIX B

                      FYS 2005 AND 2006 ROUTE REVIEWS
             FOR THE PITTSBURGH AND SOUTH JERSEY DISTRICTS11




                                                                 2500                93%                         95%
                            Total Number of Routes in District




                                                                 2000



                                                                 1500



                                                                 1000

                                                                           7%                         5%
                                                                  500



                                                                    0
                                                                        Pittsburgh                South Jersey
            Total Routes Reviewed                                          143                        117
            Total Routes Not Reviewed                                     1,984                      2,138




                                          Source: Postal Service NCSC and Eastern Area Officials




11
     A total of 260 routes were reviewed by NCSC and local AMS officials. A total of 4,122 routes were not reviewed.



                                                                                   12
                                                                         Restricted Information
Address Management System Information -                                                  DR-AR-07-009
 Eastern Area


                                           APPENDIX C

                CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $779,013 in funds put to better use over the next 10 years for the
Pittsburgh and South Jersey Districts.

                                                                            Funds Put
                                                                   Fiscal    to Better
                                District                            Year        Use

              Pittsburgh                                           2005      $482,259
              South Jersey                                         2005       296,754

              Total for 10-Year Period                                       $779,013

The following assumptions were used in the calculation of the $779,013.

1.   We used the New York Metro Area as our standard for predicting the cost savings
     possible for the Pittsburgh and South Jersey Districts.

2.   We assumed that all Postal Service areas other than New York Metro Area had not
     implemented an error reduction program over the time period of the AMS street
     reviews. These areas were our control group for purposes of estimating the net
     benefit of the New York Metro Area’s program.

3.   The AMS national street review model is used to calculate cost savings. Therefore,
     we assumed that it realistically represented costs that the Postal Service could save
     if it implemented a program that would reduce the incidence of AMS errors.
     However, in our opinion, any costs saved would have to be related to a reduction in
     overtime or casual hours; therefore, labor rates used should be hourly overtime rates
     (which was not the case).

4.   We used the AMS national street review model unchanged, with one exception: the
     model had FY 1999 labor rates imbedded. We updated these rates to reflect
     FY 2007 rates by escalating by 2.4 percent per year to arrive at a projection.

5.   We assumed that the cost of implementing an error reduction program would be
     negligible.

6.   We assumed that the average cost per error for the Pittsburgh and South Jersey
     Districts would remain constant before and after program implementation.

7.   If the Pittsburgh and South Jersey Districts began implementing a program
     immediately, FY 2007 would be devoted to setup and training. We assumed that



                                                    13
                                          Restricted Information
Address Management System Information -                                         DR-AR-07-009
 Eastern Area


     cost savings would not begin until FY 2008. Our calculation of savings (funds put to
     better use) is a discounted cash flow analysis over a 10-year period. The amount we
     will report in our Semiannual Report to Congress is the present value of the
     estimated savings over the 10-year period.

8.   AMS errors can never be reduced to zero. We assumed the practical lower limit to
     be a 1 percent error rate. However, this constraint did not affect the calculation for
     the Pittsburgh and South Jersey Districts in this instance.

9.   We assumed that error rates on rural routes would respond to an error reduction
     program in the same manner as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District
    because of uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                                    14
                                          Restricted Information
Address Management System Information -                                             DR-AR-07-009
 Eastern Area


                                           APPENDIX D

                               PRIOR AUDIT COVERAGE

                                                                                    Funds Put to
                                                                                     Better Use
                                                                                    Over the Next
            Audit                  Report Number                    Issued Date       10 Years
Address Management                 DR-AR-07-008                     May 1, 2007       $4,454,816
System Information –
Western Area
Address Management                  DR-AR-07-006                    May 1, 2007       $5,201,116
System Information –
Southwest Area
Address Management                  DR-AR-07-005                    May 1, 2007       $7,881,288
System Information – Pacific
Area
Address Management                  DR-AR-07-004                    May 1, 2007         $455,197
System Information – Capital
Metro Area
Address Management                  DR-AR-07-002                   March 30, 2007       $862,134
System Information –
Southeast Area
Address Management                  DR-AR-07-001                   March 15, 2007     $4,590,875
System Information –
Northeast Area
Address Management                  DR-AR-06-008             September 30, 2006       $2,078,506
System Information – Great
Lakes Area
Address Management                  DR-AR-06-001               January 25, 2006         $988,945
Systems – Southwest Area –
Rio Grande District




                                                    15
                                          Restricted Information
Address Management System Information -                            DR-AR-07-009
 Eastern Area


                  APPENDIX E. MANAGEMENT’S COMMENTS




                                                    16
                                          Restricted Information
Address Management System Information -                            DR-AR-07-009
 Eastern Area




                                                    17
                                          Restricted Information
